   May 27, 2005




Infrastructure and Environment

Defense Contract Audit Agency Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-067)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DCAA                  Defense Contract Audit Agency
DCAI                  Defense Contract Audit Institute
DWO                   Defense-Wide Organizations
DoD OIG               Department of Defense Office of Inspector General
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 222024704




                                                                          May 27,2005
MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
SUBJECT: Report on Defense Contract Audit Agency Data Call Submissions and
         Internal ContTol Processes for Base Realignment and Closure 2005
         (Report NO.D-2005-067)

       We are providing this report for information and use. Defense Contract Audit
Agency provided wmments. We considered management comments on the draft of this
report when preparing the final report. The complete text of the wmments is in the
Management Comments section of the report.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Deborah L. C a m s at (703) 604-9217 (DSN 664-9217) or Ms. Lois J. Wozniak at
(703) 604-9270 (DSN 664-9270). See Appendix F for the repoh distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:


                                  w4p?+   Richard B. Jolliffe
                                      Assistant Inspector General
                                        Contract Management
               Department of Defense Office of Inspector General
Report No. D-2005-067                                                  May 27, 2005
  (Project No. D2004-D000CH-0054.000)

          Defense Contract Audit Agency Data Call Submissions
                 and Internal Control Processes for Base
                     Realignment and Closure 2005

                                Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Defense Contract Audit Agency management personnel, and anyone interested
in the Base Realignment and Closure (BRAC) process should read this report. The report
discusses the validity, integrity, and supporting documentation of the data provided by
Defense Contract Audit Agency for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” on April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was mandated by the April 16, 2003, memorandum. The
BRAC 2005 data collection process was divided into the following data calls: capacity
analysis, supplemental capacity, military value, Cost of Base Realignment Actions, Joint
Process Action Team Criterion Number 7, and scenario specific. The supplemental
capacity, military value, Cost of Base Realignment Actions, and Joint Process Action
Team Criterion Number 7 data calls were collectively known as the second data call. The
Defense Contract Audit Agency, headquartered at Fort Belvoir, Virginia, performs
contract audits for the Department of Defense, and provides accounting and financial
advisory services regarding contracts and subcontracts to Department of Defense
Components responsible for procurement and contract administration. The Defense
Contract Audit Agency has 5 regional offices which manage more than 300 field audit
offices, and the Defense Contract Audit Institute which provides training for Defense
Contract Audit Agency auditors.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense and
Defense Contract Audit Agency internal control plans at seven sites for the capacity
analysis data call, seven sites for the second data call, and one site for the scenario
specific data call. We issued seven site memorandums to the Director, Defense Contract
Audit Agency during April and May 2004, summarizing the results of the capacity
analysis data call, and seven site memorandums from November 2004 through
January 2005, summarizing the results of the second data call. The scenario specific data
call responses were reviewed on January 12, 2005. A site memorandum for the scenario
specific data call was not issued. This report summarizes issues related to the Defense
Contract Audit Agency BRAC 2005 capacity analysis data call process as of April 5,
2004; the second data call process as of October 8, 2004; and the scenario specific data
call process as of January 12, 2005.

The Defense Contract Audit Agency provided BRAC 2005 data that were generally
supported, complete, and reasonable after corrections were made. We verified and
concurred with changes submitted for the capacity analysis data call between March 23
and April 5, 2004, and for the second data call on October 8, 2004. However, for the
capacity analysis data call, the Defense Contract Audit Agency Headquarters had one
inaccurate response and one response that was not adequately supported; the
Mid-Atlantic Region Office had one response that was partially supported; and the
Defense Contract Audit Institute Office had eight responses that were not adequately
supported. For the second data call, 21 responses from the five regional offices were
inaccurate or inadequately supported. We were unable to determine the materiality of the
inaccurate or inadequately supported responses to the capacity analysis and second data
calls for the Defense Contract Audit Agency BRAC 2005 analysis. Subsequent to our
review, the Joint Process Action Team Criterion Number 7 group sent requests to some
Defense agencies and Defense-Wide Organizations for clarification on some responses,
which may have resulted in changes to original responses; we did not review those
responses. Defense Contract Audit Agency may have made changes subsequent to our
review that we did not verify and that could have corrected issues identified.

The Defense Contract Audit Agency data collection process generally complied with
applicable internal control plans and properly incorporated and supplemented the Office
of the Secretary of Defense internal control plan. However, we identified four Defense
Contract Audit Agency internal control plan noncompliances. We determined that the
four internal control plan noncompliances were not material and should not affect the
integrity of the Defense Contract Audit Agency data for use in BRAC 2005 analysis.

Management Comments and Audit Response. We provided a draft of this report on
May 3, 2005. Although no comments were required, the Defense Contract Audit Agency
provided comments stating that the report was not accurate or complete because the
report failed to adequately discuss that the regions, the Defense Contract Audit Institute,
and Headquarters made corrections and changes, and the Office of Inspector General
review team verified the corrections. Defense Contract Audit Agency also stated that
they continued to meet and discuss clarifications and corrections with the Office of the
Secretary of Defense BRAC office resulting in a revised BRAC 2005 Response
(Revision 6) submission on April 14, 2005. The draft report statements on the accuracy
and reasonableness of Defense Contract Audit Agency responses to BRAC data questions
were accurate and complete. The report noted for each data call that responses were
generally accurate and reasonable “after corrections were made.” In response to
management comments, however, we added statements to the final report to clarify the
scope and dates of our review of responses and revised responses. Defense Contract
Audit Agency may have made changes subsequent to our review that we did not verify
and that could have corrected issues identified. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents
Executive Summary                                                         i

Background                                                               1

Objectives                                                               3

Finding
     Defense Contract Audit Agency BRAC 2005 Data Call Submissions and
       Internal Control Processes                                         4

Appendixes
     A. Scope and Methodology                                            10
          Management Control Program Review                              13
     B. Prior Coverage                                                   14
     C. Capacity Analysis Data Call Questions Reviewed                   16
     D. Second Data Call Uncorrected Responses                           23
     E. Second Data Call Questions Reviewed                              25
     F. Report Distribution                                              31

Management Comments
     Defense Contract Audit Agency                                       33
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    deadline for the Secretary of Defense to submit BRAC recommendations to the
    independent Commission was May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs addressed issues that affect common business-oriented
    support functions, examined functions in the context of facilities, and developed
    realignment and closure recommendations based on force structure plans of the
    Armed Forces and on selection criteria. Each JCSG developed data call questions
    to obtain information to analyze the functions.

    BRAC 2005 Data Calls. The BRAC 2005 process was mandated for the United
    States and its territories, and was divided into the following data calls: capacity
    analysis, supplemental capacity, military value, Cost of Base Realignment
    Actions (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and
    scenario specific. The first data call addressed capacity analysis issues. The
    supplemental capacity, military value, COBRA, and JPAT 7 data calls were
    collectively known as the second data call. The Services and JCSGs directed
    scenario specific data calls to the Defense agencies or Defense-Wide
    Organizations (DWO) affected by that scenario. The Services, Defense agencies,
    and DWOs used either automated data collection tools or a manual process to
    collect data call responses. Each data call had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered in the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               personnel.




                                         1
                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investment) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.1
                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           Internal Control Plans. OSD distributed the OSD internal control plan (ICP)
           under the Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum, “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
           Procedures” (Policy Memorandum One), April 16, 2003. The OSD ICP was for
           all JCSGs and guided DoD Component ICPs. Before the BRAC data calls were
           released, the OSD ICP required the Services, Defense agencies, and DWOs to
           prepare ICPs that complied with and supplemented the OSD ICP. To comply
           with that requirement, the Defense Contract Audit Agency (DCAA) Headquarters
           prepared an overall DCAA ICP, “Defense Contract Audit Agency (DCAA) Base
           Realignment and Closure (BRAC) 2005 Internal Control Plan (ICP).” The
           DCAA ICP was updated on September 10, 2004. DCAA used Microsoft Word to
           summarize collected data for the capacity analysis data call, and the Data
           Gathering Tool, a modified Microsoft Access tool developed to collect BRAC
           data for those not using an automated data collection tool, for the second data call.

           Department of Defense Office of Inspector General Responsibility. Policy
           Memorandum One requires the Department of Defense Office of Inspector
           General (DoD OIG) to provide ICP development and implementation advice,
           review the accuracy of BRAC data, and evaluate the data certification processes.
           In addition, Policy Memorandum One requires DoD OIG personnel to assist the
           JCSGs and DoD Components as needed. This report summarizes OIG efforts
           related to the DCAA BRAC 2005 process.

           Defense Contract Audit Agency. DCAA, headquartered at Fort Belvoir,
           Virginia (VA), performs contract audits for DoD, and provides accounting and
           financial advisory services regarding contracts and subcontracts to DoD
           Components responsible for procurement and contract administration. DCAA
           consists of a headquarters office at Fort Belvoir, VA, and five regional offices:
           Central Region Office, Irving, Texas (TX); Eastern Region Office, Smyrna,
           Georgia (GA); Western Region Office, La Mirada, California (CA); Mid-Atlantic
           Region Office, Philadelphia, Pennsylvania (PA); and Northeastern Region Office,
           Lowell, Massachusetts (MA). The regional offices manage more than 300 field
           audit offices and sub-offices located throughout the United States, Europe, and
           the Pacific. The Defense Contract Audit Institute (DCAI) is a component of


1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analysis by either a JCSG or Military Department.



                                                        2
    DCAA Headquarters and is located in Memphis, Tennessee (TN). The DCAI
    mission is to provide knowledge and skills training for DCAA auditors.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DCAA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DCAA complied with
    the OSD and DCAA ICPs. See Appendix A for a discussion of the scope and
    methodology and Appendix B for prior coverage related to the audit objectives.
    This report is one in a series on data call submissions and internal control
    processes for BRAC 2005.




                                        3
           Defense Contract Audit Agency BRAC
           2005 Data Call Submissions and Internal
           Control Processes
           DCAA responses to the BRAC 2005 data calls were generally accurate,
           supported, and reasonable after corrections were made. However, DCAA
           had 1 inaccurate response, 1 partially supported response, and 9 responses
           that were not adequately supported for the capacity analysis data call; and
           14 inaccurate responses and 7 responses that were not adequately
           supported for the second data call. The DCAA data collection process
           generally complied with the applicable ICPs, and properly incorporated
           and supplemented the OSD ICP. However, we identified four
           noncompliances at the Central and Northeastern Region Offices. We were
           unable to determine the validity of the partially supported and
           inadequately supported responses, and we could not determine whether
           these responses had a material effect on the BRAC 2005 analysis for
           DCAA. The DCAA ICP noncompliances were not material and should
           not affect the integrity of the DCAA data for use in the BRAC 2005
           analysis.


DCAA BRAC 2005 Data Call Submissions
    DCAA provided data for the BRAC 2005 analysis that were generally supported,
    complete, and reasonable once corrections were made. However, 11 responses to
    the capacity analysis data call were inaccurate, partially supported, or
    inadequately supported, and 21 responses to the second data call were inaccurate
    or inadequately supported. DCAA received the data call questions, reviewed the
    questions for applicability, and targeted specific questions for each site. We
    evaluated the validity, integrity, and supporting documentation of the responses to
    DCAA targeted questions. Specifically, we compared responses with supporting
    documentation for accuracy and reviewed “Not Applicable” (N/A) responses for
    reasonableness. We did not verify that the responses were entered into the OSD
    Database.

    Capacity Analysis Data Call. DCAA responses to the capacity analysis data call
    were generally accurate, reasonable, and adequately supported after corrections
    were made, and the N/A responses were reasonable. We verified and concurred
    with the changes submitted by the regions, DCAI, and DCAA Headquarters for
    the capacity analysis data call between March 23 and April 5, 2004. However,
    DCAA Headquarters had one inaccurate response, and one response that was not
    adequately supported; the Mid-Atlantic Region Office had one response that was




                                         4
           partially supported;2 and DCAI had eight responses that were not adequately
           supported. Specifically:

                    •   The DCAA Headquarters response to question number 329 was not
                        adequately supported, and the response to question number 463 was
                        inaccurate. Specifically, for question number 463, we identified a
                        difference of four people between the staffing chart and the reported
                        answer.

                    •   The Mid-Atlantic Region response to question number 301 was
                        partially supported. Specifically, support for the response to the
                        second part of question number 301 consisted of e-mail documents and
                        interviews indicating gross square footage calculations were based on
                        manually counting ceiling tiles.

                    •   The DCAI responses to question numbers 105, 107 through 109, 111,
                        311, 472, and 749 were not adequately supported. DCAI personnel
                        submitted corrections to DCAA Headquarters for question numbers
                        105, 107, and 111; we were unable to determine if the supporting
                        documents were adequate and question responses were reasonable
                        because supporting documentation for the corrected responses was not
                        available for review at DCAA Headquarters.

           We inquired during our second data call site visits whether responses had been
           revised or additional supporting documentation had been submitted for the
           unresolved issues associated with the capacity analysis data call. DCAA
           Headquarters, Mid-Atlantic Region, and DCAI personnel stated that no changes
           were made since the issuance of the site memorandums. We were unable to
           determine the validity of the partially supported response and the nine
           inadequately supported responses, and we could not determine whether these
           responses had a material effect on the BRAC 2005 analysis for DCAA. However,
           we determined that the inaccurate response to the capacity analysis data call was
           not material and should not have a material effect on the BRAC 2005 analysis for
           DCAA.

           The OSD BRAC Office sent DCAA Headquarters 753 capacity analysis data call
           questions. DCAA BRAC officials reviewed those questions and selected specific
           questions to forward to each DCAA site. DCAA BRAC officials forwarded
           36 questions to DCAA Headquarters, 24 questions to each of the 5 regional
           offices located in the continental United States, and 8 questions to DCAI. DCAA
           Headquarters personnel responded to 21 questions with an N/A response and
           15 questions with an answer. The regional offices each responded to
           20 questions with an N/A response and 4 questions with an answer. DCAI
           responded to eight questions with an answer. We evaluated the responses and
           supporting documentation at seven sites in the continental United States: DCAA
           Headquarters at Fort Belvoir, VA; Central Region Office, Irving, TX; Eastern
2
    Capacity analysis data call question number 301 asked for the building number, name, address, DoD host,
    and gross square feet assigned by the host for each building of owned, administrative space occupied
    outside the Washington, D.C., area. Additionally, the question asked for the personnel breakdown of
    authorized and on-board contractors per building.



                                                      5
           Region Office, Smyrna, GA; Western Region Office, La Mirada, CA;
           Mid-Atlantic Region Office, Philadelphia, PA; Northeastern Region Office,
           Lowell, MA; and DCAI, Memphis, TN. See Appendix C for a list of sites visited,
           the sub-activities for each region, and the questions reviewed. DCAA
           Headquarters answered on behalf of the Headquarters and 95 Operations Audit
           Liaison offices, and each of the 5 regional offices answered on behalf of the
           regional and the field audit offices and sub-offices (referred to as sub-activities in
           this report) within the region.

           Second Data Call. DCAA responses to the second data call were generally
           accurate and supported once corrections were made, and the N/A responses were
           reasonable. We verified and concurred with the changes submitted to DCAA
           Headquarters through October 8, 2004. We identified inaccurate responses and
           responses with inadequate support during our review. We were unable to
           determine the validity of the inadequately supported responses. DCAA sites
           revised responses and provided supporting documentation to correct most of the
           issues. However, we could not determine whether the inadequately supported and
           uncorrected responses had a material effect on the BRAC 2005 analysis for
           DCAA. See Appendix D for details on the uncorrected responses for the five
           regional offices.

           We evaluated the responses and supporting documentation at seven DCAA
           locations in the continental United States: DCAA Headquarters at Fort Belvoir,
           VA; Central Region Office, Irving, TX; Eastern Region Office, Smyrna, GA;
           Western Region Office, La Mirada, CA; Mid-Atlantic Region Office,
           Philadelphia, PA; Northeastern Region Office, Lowell, MA; and DCAI,
           Memphis, TN. See Appendix E for a list of sites visited, the sub-activities for
           each region, and the questions reviewed.

           DCAA received targeted questions from the JCSGs. In addition, DCAA was
           required to answer JPAT 7 and COBRA data call questions for stand-alone
           facilities, including leased facilities. DCAA Headquarters determined which
           questions would be answered by DCAA Headquarters, the five regional offices,
           and DCAI. DCAA Headquarters responded on behalf of the Headquarters and
           sub-activities located in the statutory National Capital Region. The five regional
           offices provided responses for the region office and on behalf of the field audit
           offices and sub-activities within the region.

           We did not make a determination as to whether DCAA Headquarters’ response to
           the Headquarters and Support Activities JCSG military value question numbers
           19073 and 19084 were supported, complete, and accurate. We could not verify the
           supporting documentation because it consisted of personal electronic calendars
           and a memorandum that could not be validated. In addition, DCAA Headquarters
           directed the regional offices and DCAI to respond to JPAT 7 question numbers
           1400 and 1414 with county data instead of Military Housing Area data as

3
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
4
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.



                                                       6
     requested. DCAA Headquarters also directed regional offices and DCAI to
     respond to JPAT 7 question numbers 1405 and 1406 using data for a 20-mile
     radius instead of the Military Housing Area as requested. Therefore, none of the
     DCAA responses to JPAT 7 question numbers 1400, 1405, 1406, and 1414 met
     the intent of the questions. Subsequent to our review, the JPAT 7 group sent
     requests to some Defense agencies and DWOs for clarification on some
     responses, which may have resulted in changes to original responses; we did not
     review changes to original responses. Therefore, the issues related to these
     questions may no longer be valid.

     Scenario Specific Data Call. DCAA Headquarters responded to one scenario
     specific data call as of January 12, 2005. We evaluated the responses and support
     at DCAA Headquarters for the Education and Training JCSG scenario number
     E&T-0013 and determined the responses to be reasonable and adequately
     supported.


Internal Control Processes
     DCAA generally complied with the ICPs for the data calls, and the DCAA ICP
     properly incorporated and supplemented the OSD ICP requirements. However,
     we identified four ICP noncompliances at the Central and Northeastern Region
     Offices. We determined that the four ICP noncompliances were not material and
     should not affect the integrity of the DCAA data for use in BRAC 2005 analysis.

     We evaluated compliance with the ICPs at seven sites for the capacity analysis
     data call: DCAA Headquarters at Fort Belvoir, VA; Central Region Office,
     Irving, TX; Eastern Region Office, Smyrna, GA; Western Region Office,
     La Mirada, CA; Mid-Atlantic Region Office, Philadelphia, PA; Northeastern
     Region Office, Lowell, MA; and DCAI, Memphis, TN. We visited the same
     seven sites for the second data call, and only DCAA Headquarters for the scenario
     specific data call. We evaluated the BRAC 2005 data collection process at each
     office to determine compliance with OSD and DCAA ICPs. The evaluations
     included reviewing whether all personnel participating in the BRAC process
     completed nondisclosure statements, all BRAC documents were properly marked
     with the Deliberative Document security markings, and all BRAC data were
     stored, safeguarded, and maintained in locked containers.

     Compliance With ICPs. DCAA generally complied with the ICPs for the
     capacity analysis, the second, and the scenario specific data calls. However, we
     identified DCAA ICP noncompliances which were not material and should not
     impact the integrity of the DCAA data for use in BRAC 2005 analysis. DCAA
     had one noncompliance with the OSD ICP in that DCAA had not properly
     marked some of the BRAC-related documents used to support answers to capacity
     analysis and second data call questions as required. Upon being notified of the
     noncompliance, DCAA corrected the ICP noncompliance at all locations except
     Central Region.

     DCAA had three noncompliances with the DCAA ICP during the second data
     call. Specifically, the Central Region Office reviewer approvals were dated


                                         7
    before the responders’ preparation dates; DCAA Northeastern Region personnel
    did not sign each question page for the second data call and did not complete a
    certification page for each question; and the Central and Northeastern Region
    Offices did not maintain an access log for the locked storage cabinets containing
    BRAC documentation.

    Completeness of the DCAA ICP. The DCAA ICP properly incorporated and
    supplemented the requirements established in the OSD ICP and provided
    guidance on DCAA personnel responsibilities. The DCAA ICP provided a
    consistent set of management controls to ensure the accuracy, completeness, and
    integrity of BRAC data and limit the possibility of premature disclosure of BRAC
    information. The DCAA ICP provided documentation requirements, review
    procedures, and certification procedures that applied to all DCAA sites. The
    DCAA ICP also included direction on completing nondisclosure agreements and
    on collecting, marking, safeguarding, and maintaining BRAC data. In addition,
    the DCAA ICP identified the documentation required to revise answers after
    certification and submission to the OSD BRAC Office.


Conclusion
    DCAA responses to the BRAC data calls were generally supported, complete, and
    reasonable after corrections were made. However, 11 responses to the capacity
    analysis data call were inaccurate, partially supported, or inadequately supported,
    and 21 responses to the second data call from the 5 regional offices were
    inaccurate or inadequately supported. The DCAA ICP properly incorporated and
    supplemented the OSD ICP, and the DCAA data collection process generally
    complied with the ICPs. However, we identified four noncompliances at the
    Central and Northeastern Region Offices. We discussed the results of the data
    call submissions and ICP reviews with DCAA personnel at each location upon
    completion of data validation and site visit. We could not determine whether the
    unresolved issues with the responses will have a material effect on the BRAC
    2005 analysis for DCAA. The DCAA ICP noncompliances were not material and
    should not affect the integrity of the DCAA data for use in the BRAC 2005
    analysis. DCAA may have made changes subsequent to our review that we did
    not verify and that could have corrected issues identified.

Management Comments on the Finding and Audit Response
    Although not required to comment, the Assistant Director of Operations, DCAA
    provided the following comments on the report. For the full text of DCAA
    comments, see the Management Comments section of the report.

    DCAA Comments. The Assistant Director of Operations, DCAA stated the
    report was not accurate or complete, and the statement that the report summarized
    issues as of January 12, 2005, was misleading because the report did not consider
    revisions made to BRAC 2005 data and DCAA ICP. The Assistant Director
    stated that the regions, DCAI, and DCAA Headquarters submitted corrections and
    changes for all discrepancies and included the corrections in a March 15, 2004,


                                         8
BRAC response. The Assistant Director stated that the report fails to adequately
discuss that DCAA made the changes and the OIG review team verified the
changes. Additionally, DCAA submitted BRAC 2005 Response (Revision 1) on
May 24, 2004, which corrected four previously cited questions and answers. The
Assistant Director further stated that DCAA continued to meet and discuss
clarifications and corrections with the OSD BRAC Office and submitted the
BRAC 2005 Response (Revision 6) on April 14, 2005.

Audit Response. The draft report statements on the accuracy and reasonableness
of DCAA responses to BRAC data questions were accurate and complete. The
report noted for each data call that responses were generally accurate and
reasonable “after corrections were made.” In response to management comments,
however, we added statements to the final report to clarify the scope and dates of
our review of responses and revised responses. Specifically, we verified and
concurred with changes submitted by the regions, DCAI, and DCAA
Headquarters for the capacity analysis data call at DCAA Headquarters between
March 23 and April 5, 2004. We were unable to determine if the supporting
documents were adequate and question responses were reasonable for DCAI
because supporting documentation for the corrected responses was not available
for review at DCAA Headquarters. We inquired during our second data call site
visits whether additional revisions and supporting documentation had been
submitted regarding the unresolved issues for the capacity analysis data call.
Management at the DCAA Headquarters, Mid-Atlantic Region, and DCAI stated
that no additional changes had been made for the capacity analysis data call. We
verified and concurred with the changes submitted for the second data call at
DCAA Headquarters on October 8, 2004. This report addresses capacity analysis
data call responses as of April 5, 2004, and second data call responses as of
October 8, 2004, that we determined were inaccurate or unsupported. We did not
review subsequent changes DCAA may have made to responses after April 5,
2004, for the capacity analysis data call and after October 8, 2004, for the second
data call. Scenario specific data call responses were reviewed on January 12,
2005.




                                     9
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DCAA
   BRAC 2005 data. Specifically, we compared question responses to supporting
   documentation and reviewed N/A question responses to determine whether
   responses were reasonable. Questions were answered or identified as N/A; an
   N/A response was provided for questions DCAA determined did not apply. We
   reviewed documentation dated from July 1991 through September 2004.
   However, we did not verify that DCAA responses were entered into the OSD
   Database. We evaluated whether the DCAA ICP incorporated and supplemented
   the requirements of the OSD ICP. We also evaluated site data collection
   procedures for compliance with ICP procedures, to include whether all personnel
   participating in the BRAC process completed nondisclosure statements; all BRAC
   documents were properly marked with the Deliberative Document security
   markings; and all BRAC data were stored, safeguarded, and maintained in locked
   containers. In addition, we interviewed personnel responsible for preparing and
   certifying data call responses.

   Capacity Analysis Data Call. The OSD BRAC Office sent DCAA Headquarters
   753 capacity analysis data call questions. DCAA BRAC officials reviewed those
   questions and selected specific questions to forward to each DCAA site. DCAA
   BRAC officials forwarded 36 questions to DCAA Headquarters, 24 questions to
   each of the 5 regional offices located in the continental United States, and
   8 questions to DCAI. DCAA Headquarters answered on behalf of the
   Headquarters and 95 Operations Audit Liaison offices, and each of the 5 regions
   answered on behalf of the region and its sub-activities. DCAA Headquarters
   personnel responded to 21 questions with an N/A response and 15 questions with
   an answer. The regional offices each responded to 20 questions with an N/A
   response and 4 questions with an answer. The DCAI responded to eight questions
   with an answer. See Appendix C for a listing of the questions answered by the
   DCAA Headquarters, regional offices and sub-activities, and DCAI. We did not
   validate the DCAA Headquarters selection process or the questions not selected.

   We evaluated the data call responses at each DCAA site visited, including:
   DCAA Headquarters, Fort Belvoir, VA; Central Region Office, Irving, TX;
   Eastern Region Office, Smyrna, GA; Western Region Office, La Mirada, CA;
   Mid-Atlantic Region Office, Philadelphia, PA; Northeastern Region Office,
   Lowell, MA; and DCAI, Memphis, TN. We audited the capacity analysis data
   call responses for DCAA during the period from March through April 2004, and
   reviewed changes to responses at DCAA Headquarters from March 23 through
   April 5, 2004. We were unable to determine if the supporting documents were
   adequate and question responses were reasonable for DCAI because supporting
   documentation for the corrected responses was not available for review at DCAA
   Headquarters. We issued seven site memorandums to the Director, DCAA during
   April and May 2004, summarizing the results of these site visits.

   Second Data Call. The OSD BRAC Office sent DCAA Headquarters
   192 questions. DCAA Headquarters reviewed the data call questions and further
   targeted specific questions to DCAA regional offices and DCAI. DCAA BRAC


                                     10
           officials forwarded 192 questions to DCAA Headquarters, 28 questions to each of
           3 regional offices, 26 questions to each of 2 regional offices, and 30 questions to
           DCAI for the second data call.

           DCAA Headquarters received targeted questions from the JCSGs. Specifically,
           DCAA received:
                •   Headquarters and Support Activities JCSG military value question
                    numbers 1905 and 1907 through 1917;1

                •   Headquarters and Support Activities JCSG supplemental capacity question
                    numbers 4072 through 4074, 4079 through 4081, 4096, and 4099 through
                    4103;

                •   Education and Training JCSG military value question numbers
                    1600 through 1760;

                •   Education and Training JCSG supplemental capacity question numbers
                    4000 and 4001;

                •   Medical JCSG supplemental capacity question numbers 4242 through
                    4246;

                •   COBRA question numbers 1500 through 1507; and

                •    JPAT 7 question numbers 1400 through 1417, 1420, and 1421.2

           DCAA Headquarters directed the regional offices and DCAI to respond to JPAT 7
           question numbers 1400 and 1414 with county data instead of Military Housing
           Area data as requested. DCAA Headquarters also directed regional offices and
           DCAI to respond to JPAT 7 question numbers 1405 and 1406 using data for a
           20-mile radius instead of the Military Housing Area as requested. We did not
           validate the DCAA Headquarters selection process or the questions not selected.
           However, DCAA complied with the requirement to have all stand-alone facilities
           and host installations, including leased facilities, answer JPAT 7 and COBRA
           data call questions. DCAA stand-alone facilities included 5 regional offices,
           95 sub-activities, and DCAI.

           We visited DCAA Headquarters, all five regional offices, and DCAI. We audited
           the second data call responses for DCAA during the period from August 2004
           through October 2004 and reviewed changes to responses at DCAA Headquarters
           through October 8, 2004. Subsequent to our review, the JPAT 7 group sent
           requests to some Defense agencies and DWOs for clarification on some
           responses, which may have resulted in changes to original responses; we did not

1
    We did not make a determination as to whether DCAA Headquarters’ response to the Headquarters and
    Support Activities JCSG question numbers 1907 and 1908 were supported, complete, and accurate. We
    could not verify the supporting documentation because it consisted of personal electronic calendars and a
    memorandum that could not be validated.
2
    The JPAT 7 group replaced question numbers 1418 and 1419 with question numbers 1420 and 1421.



                                                      11
review changes to original responses. In addition to reviewing the second data
call responses, we inquired whether initial capacity analysis data call responses
identified in our site memorandums as inaccurate had been changed or additional
supporting documentation had been provided for inadequately supported
responses. Specifically our site memorandums identified issues with the
following:

       •   question numbers 327, 329, 446, 462, and 463 at DCAA Headquarters;

       •   question numbers 301 and 311 at the Eastern Region Office;
       •   question number 311 at the Western Region Office;

       •   question numbers 301, 311, 462, and 463 at the Mid-Atlantic Region
           Office; and

       •   question numbers 105, 107 through 109, 111, 311, 472, and 749 at
           DCAI.

DoD OIG issued seven site memorandums to the Director, DCAA from
November 2004 through January 2005 to summarize the results of these site
visits. See Appendix E for a listing of the questions answered by the DCAA
Headquarters, regional offices and sub-activities, and DCAI for the second data
call.

Scenario Specific Data Call. DCAA Headquarters received one scenario
specific data call from the JCSGs as of January 12, 2005. Specifically, DCAA
headquarters received and answered one scenario specific data call, Education and
Training JCSG scenario number E&T-0013. We reviewed DCAA responses to
the Education and Training JCSG scenario data call at DCAA Headquarters for
reasonableness and support.

We performed this audit from March 2004 through April 2005 in accordance with
generally accepted government auditing standards.

Use of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support answers to data call questions because of
time constraints. Potential inaccuracies in the data could impact the results.
However, the BRAC data were certified as accurate and complete to the best of
the certifiers’ knowledge and belief. DCAA used Microsoft Word to summarize
collected data for the capacity analysis data call, and the Data Gathering Tool, a
modified Microsoft Access tool developed to collect BRAC data for those not
using an automated data collection tool, for the second data call. We did not
review the data collection tools used.

Government Accountability Office High-Risk Areas. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Federal Real Property and DoD Support Infrastructure
Management high-risk areas.




                                    12
Management Control Program Review
    We did not review the DCAA management control program because its
    provisions were not deemed applicable to the one-time data collection process.
    However, we evaluated the DCAA management controls for preparing,
    submitting, documenting, and safeguarding information associated with the
    BRAC 2005 data calls, as directed by the applicable ICPs. The evaluation
    included reviewing whether all personnel participating in the BRAC process
    completed nondisclosure statements; all BRAC documents were properly marked
    with the Deliberative Document security markings; and all BRAC data were
    stored, safeguarded, and maintained in a locked container. Management controls
    were adequate as they applied to the audit objective. However, DCAA had four
    noncompliances with the ICPs which were not material (See finding for additional
    details).




                                       13
Appendix B. Prior Coverage
During the last 5 years, the DoD Inspector General has issued 14 site memorandums
related to DCAA BRAC 2005.

DoD Inspector General
       Site Memorandums

       DoD IG Memorandum, “Audit of the Second Data Call Submission From
       Defense Contract Audit Agency, Western Region to Defense Contract Audit
       Agency Headquarters for Base Realignment and Closure 2005,” January 4, 2005

       DoD IG Memorandum, “Audit of the Second Data Call Submission From
       Defense Contract Audit Agency, Central Region to Defense Contract Audit
       Agency Headquarters for Base Realignment and Closure 2005,” December 23,
       2004

       DoD IG Memorandum, “Audit of the Second Data Call Submission From
       Defense Contract Audit Agency, Northeastern Region, to Defense Contract Audit
       Agency Headquarters for Base Realignment and Closure 2005,” December 23,
       2004

       DoD IG Memorandum, “Audit of the Second Data Call Submission From
       Defense Contract Audit Agency, Eastern Region, to Defense Contract Audit
       Agency Headquarters for Base Realignment and Closure 2005,” December 3,
       2004

       DoD IG Memorandum, “Audit on the Second Data Call Submission From
       Defense Contract Audit Agency Headquarters for Base Realignment and Closure
       2005,” December 3, 2004

       DoD IG Memorandum, “Audit on the Second Data Call Submission From
       Defense Contract Audit Agency, Mid Atlantic Region to Defense Contract Audit
       Agency Headquarters for Base Realignment and Closure 2005,” December 3,
       2004

       DoD IG Memorandum, “Audit of the Second Data Call Submission From
       Defense Contract Audit Institute to Defense Contract Audit Agency Headquarters
       for Base Realignment and Closure 2005,” November 17, 2004

       DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
       From Defense Contract Audit Institute to Headquarters, Defense Contract Audit
       Agency for Base Realignment and Closure 2005,” May 24, 2004




                                         14
DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency Headquarters for Base Realignment and
Closure 2005,” May 21, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency, Eastern Region to Defense Contract Audit
Agency Headquarters for Base Realignment and Closure 2005,” May 4, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency, Mid-Atlantic Region to Defense Contract
Audit Agency Headquarters for Base Realignment and Closure 2005,” May 4,
2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency Northeastern Region to Defense Contract
Audit Agency Headquarters for Base Realignment and Closure 2005,” May 4,
2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency, Western Region to Defense Contract
Audit Agency Headquarters for Base Realignment and Closure 2005,” May 4,
2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Audit Agency, Central Region to Defense Contract Audit
Agency Headquarters for Base Realignment and Closure 2005,” April 30, 2004




                                 15
Appendix C. Capacity Analysis Data Call
            Questions Reviewed
For the capacity analysis data call, DCAA Headquarters answered questions on behalf of
the Headquarters Office and the Operation Audit Liaison offices. DCAA regional offices
answered questions on behalf of the regional office and the sub-activities within the
region. The charts below depict the questions that DCAA Headquarters, DCAI, and
regional offices answered for each site.

               Table 1. Questions Answered by DCAA Headquarters

             Location                  Questions Answered           Questions Not
                                                                     Applicable
 DCAA Headquarters,                  327-329, 446, 448, 465,   105, 107-111, 302, 310,
 Fort Belvoir, VA                    472, 480, 482, 690, and   313, 324, 347, 371, 386,
                                     691                       387, 393, 464, 466, 467,
                                                               732, 747, and 749
 Defense Contract Audit Institute,   105, 107-109, 111, 311,
 Memphis, TN                         472, and 749
 Alexandria, VA                      462
 Falls Church, VA                    462
 Arlington, VA                       463
 Patuxent River, Maryland (MD)       463
 (2 sites)
 Washington Navy Yard, DC            463
 (2 sites)
 Washington, DC (2 sites)            463
 15 Operations Audit Liaison         311
 Offices (See List 1)
 71 Operations Audit Liaison         301
 Offices (See List 2)




                                           16
List 1. 15 Operations Audit Liaison Offices

   •   Aurora, Colorado (CO)                     •   Omaha, Nebraska (NE)
   •   Huntsville, Alabama (AL) (2 sites)        •   Orlando, Florida (FL)
   •   Kansas City, Missouri (MO)                •   Poulsbo, Washington (WA)
   •   Killeen, TX                               •   San Diego, CA (3 sites)
   •   Lester, PA                                •   Savannah, GA
   •   North Charleston, South Carolina
       (SC) (2 sites)

List 2. 71 Operations Audit Liaison Offices

   •   Aberdeen Proving Grounds,                 •   Hill AFB, Utah (UT)
       MD (2 sites)
   •   Albuquerque, New Mexico (NM)              •   Newport News, VA
       (2 sites)
   •   Brooks City-Base, TX                      •   Norfolk, VA (2 sites)
   •   Camp Pendleton, CA                        •   Philadelphia, PA (2 sites)
   •   China Lake, CA                            •   Port Hueneme, CA
   •   Colorado Springs, CO                      •   Portsmouth, VA
   •   Columbus, Ohio (OH) (3 sites)             •   Randolph AFB, TX
   •   Eatontown, New Jersey (NJ)                •   Redstone Arsenal, AL (8 sites)
       (2 sites)
   •   Edwards AFB, CA (2 sites)                 •   Richmond, VA
   •   El Segundo, CA (3 sites)                  •   Rock Island, Illinois, (IL) (2 sites)
   •   Elgin AFB, FL                             •   San Antonio, TX (5 sites)
   •   Elmendorf AFB, Alaska (AK)                •   San Diego, CA (3 sites)
   •   Fort Detrick, MD                          •   Scott AFB, IL (2 sites)
   •   Fort Hood, TX                             •   Tinker AFB, Oklahoma (OK)
   •   Fort Irwin, CA                            •   Tyndall AFB, FL
   •   Fort McPherson, GA                        •   Vandenberg AFB, CA
   •   Fort Monmouth, NJ                         •   Warner Robins, GA
   •   Hanahan, SC                               •   Warren, Michigan (MI) (3 sites)
   •   Hanscom AFB, MA (2 sites)                 •   Wright-Patterson AFB, OH (6 sites)




                                            17
           Table 2. Questions Answered by DCAA Central Region Office

            Location                   Questions Answered      Questions Not Applicable
 DCAA Central Region Office,          311, 448, and 472       302, 310, 313, 347, 371,
 Irving, TX                                                   386, 387, 393, 462, 467,
                                                              480, 482, 690, 691, 732,
                                                              and 747
 Iowa Army Ammunition Plant,          301
 Middletown, Iowa (IA)
 Lockheed Martin,                     301
 Ft. Worth, TX
 Raytheon Missile Systems,            301
 Tucson, Arizona (AZ)
 Davis-Monthan AFB,                   301
 Tucson, AZ
 19 Sub-activities (See List 1)       311

List 1. 19 Sub-activities

   •   Arizona Branch Office,                     •   Milwaukee Branch Office,
       Tempe, AZ                                      Wauwatosa, Wisconsin (WI)
   •   Albuquerque Sub-office,                    •   Austin Sub-office,
       Albuquerque, NM                                Austin, TX
   •   El Paso Sub-office,                        •   Minneapolis Branch Office,
       El Paso, TX                                    Minneapolis, Minnesota (MN)
   •   Arlington Branch Office,                   •   Richardson Branch Office,
       Arlington, TX                                  Richardson, TX
   •   San Antonio Sub-office,                    •   Oklahoma City Sub-office,
       San Antonio, TX                                Oklahoma City, OK
   •   Chicago Branch Office,                     •   Salt Lake Valley Branch Office,
       Oakbrook Terrace, IL                           West Valley City, UT
   •   Dallas Branch Office,                      •   St. Louis Branch Office,
       Irving, TX                                     St. Louis, MO
   •   Denver Branch Office,                      •   Kansas City Sub-office,
       Lakewood, CO                                   Independence, MO
   •   Colorado Springs Sub-office,               •   Wichita Sub-office,
       Colorado Springs, CO                           Wichita, Kansas (KS)
   •   Houston Branch Office,
       Houston, TX




                                             18
            Table 3. Questions Answered by DCAA Eastern Region Office

           Location                  Questions Answered       Questions Not Applicable
 Eastern Region Office,           311, 448, and 472          302, 310, 313, 347, 371, 386,
 Smyrna, GA                                                  387, 393, 462-467, 480, 482,
                                                             690, 691, 732, and 747
 Arnold AFB, TN                   301
 Patrick AFB, FL (2 sites)        301
 25 Sub-activities (See List 1)   311

List 1. 25 Sub-activities

     •   Special Programs Office,                 •   Melbourne Branch Office,
         Greensboro, North Carolina (NC)              Melbourne, FL
     •   Special Programs Office,                 •   Jacksonville Sub-office,
         Orlando, FL                                  Jacksonville, FL
     •   Atlanta Branch Office,                   •   Orlando Sub-office,
         Smyrna, GA                                   Orlando, FL
     •   Fort Rucker Sub-office,                  •   Nashville Branch Office,
         Daleville, AL                                Nashville, TN
     •   Fort Walton Beach Sub-office,            •   North Carolina Branch Office,
         Fort Walton Beach, FL                        Greensboro, NC
     •   Dayton Branch Office,                    •   Chapel Hill Sub-office,
         Fairborn, OH                                 Chapel Hill, NC
     •   Cincinnati Sub-office,                   •   Charleston Sub-office,
         Cincinnati, OH                               North Charleston, SC
     •   Gulf Coast Branch Office,                •   General Dynamics Advanced
         Pascagoula, Mississippi (MS)                 Technology Systems Sub-office,
                                                      Greensboro, NC
     •   Hampton Roads Branch Office,             •   Northern Ohio Branch Office,
         Hampton, VA                                  Brecksville, OH
     •   Huntsville Branch Office,                •   Columbus Sub-office,
         Huntsville, AL                               Gahanna, OH
     •   Birmingham Sub-office,                   •   Tampa Bay Branch Office,
         Birmingham, AL                               Clearwater, FL
     •   Jackson Sub-office,                      •   Ft. Lauderdale Sub-office,
         Jackson, MS                                  Ft. Lauderdale, FL
     •   Indianapolis Branch Office,
         Indianapolis, Indiana (IN)




                                             19
           Table 4. Questions Answered by DCAA Western Region Office

          Location               Questions Answered      Questions Not Applicable
 Western Region Office,        311, 448, and 472        301, 302, 310, 347, 371,
 La Mirada, CA                                          386, 387, 393, 462-467,
                                                        480, 482, 690, 691, 732,
                                                        and 747
 Alaska Sub-office,            311 and 313
 Anchorage, AK
 Pacific Branch, Hawaii Sub-   311 and 313
 office, Honolulu, Hawaii
 (HI)
 15 Sub-activities             311
 (See List 1)

List 1. 15 Sub-activities

    •   East Bay Branch Office,              •   Santa Barbara Sub-office,
        Fremont, CA                              Goleta, CA
    •   Sacramento Sub-office,               •   San Gabriel Valley Branch Office,
        Folsom, CA                               West Covina, CA
    •   North County Branch Office,          •   Santa Ana Branch Office,
        San Diego, CA                            Santa Ana, CA
    •   Peninsula Branch Office,             •   Seattle Branch Office,
        Mountain View, CA                        Seattle, WA
    •   Rainier Branch Office,               •   Fort Vancouver Sub-office,
        Kent, WA                                 Vancouver, WA
    •   San Diego Branch Office,             •   Richland Sub-office,
        San Diego, CA                            Richland, WA
    •   San Fernando Valley Branch           •   South Bay Branch Office,
        Office, Van Nuys, CA                     Gardena, CA
    •   Camarillo Sub-office,
        Camarillo, CA




                                        20
        Table 5. Questions Answered by DCAA Mid-Atlantic Region Office

           Location                Questions Answered      Questions Not Applicable
 Mid-Atlantic Region Office,     311, 448, and 472        302, 310, 313, 347, 371,
 Philadelphia, PA                                         386, 387, 393, 464, 467,
                                                          480, 482, 690, 691, 732,
                                                          and 747
 Picatinny Arsenal,              301
 Picatinny, NJ
 Willow Grove, PA                301
 Fort Monmouth, NJ               301
 Media Sub-office,               311
 Media, PA
 Pennsylvania Branch Office,     311
 King of Prussia, PA
 Pittsburgh Sub-office,          311
 Pittsburgh, PA
 Southern New Jersey Branch      311
 Office,
 Cherry Hill, NJ
 New Cumberland Sub-office,      463 and 465
 New Cumberland, PA.
 10 Sub-activities               462 and 466
 (See List 1)

List 1. 10 Sub-activities

    •   Alexandria Branch Office,              •   National Branch Office,
        Springfield, VA                            Germantown, MD
    •   Baltimore Branch Office,               •   Reston Branch Office,
        Baltimore, MD                              Herndon, VA
    •   Columbia and Chesapeake Bay            •   Rosslyn Branch Office,
        Branch Offices, Columbia, MD               Springfield, VA
        (co-located)
    •   Fairfax Branch Office,                 •   State Department Sub-office,
        Herndon, VA                                Springfield, VA (Washington,
                                                   D.C.)
    •   Herndon Branch Office,                 •   Silver Spring Branch Office,
        Herndon, VA                                Germantown, MD




                                          21
        Table 6. Questions Answered by DCAA Northeastern Region Office

            Location              Questions Answered     Questions Not Applicable
 Northeastern Region Office,     311, 448, and 472      301, 302, 310, 313, 347,
 Lowell, MA                                             371, 386, 387, 393,
                                                        462-467, 480, 482, 690,
                                                        691, 732, and 747
 Garden City, New York (NY)      301
 12 Sub-activities               311
 (See List 1)

List 1. 12 Sub-activities

    •   Boston Branch Office,                  •   New York Branch Office,
        Boston, MA                                 New York, NY
    •   Great Lakes Branch Office,             •   Northern New England Branch
        Livonia, MI                                Office, Lexington, MA
    •   Grand Rapids Sub-office,               •   Upstate New York Branch Office,
        Grand Rapids, MI                           Schenectady, NY
    •   Greater Connecticut Branch Office,     •   Buffalo Sub-office, Buffalo,
        Trumbull, Connecticut (CT)                 Bowmansville, NY
    •   East Hartford Sub-office,              •   Dewitt Sub-office,
        East Hartford, CT                          Dewitt, NY
    •   Long Island Branch Office,             •   Rochester Sub-office,
        Central Islip, NY                          Rochester, NY




                                         22
Appendix D. Second Data Call Uncorrected
            Responses
   We verified and concurred with the changes submitted to DCAA Headquarters
   through October 8, 2004, for the second data call. However, the following
   responses remained uncorrected as of that date for the five regions. Subsequent
   to our review, the JPAT 7 group sent requests to some Defense agencies and
   DWOs for clarification on some responses, which may have resulted in changes
   to original responses; we did not review changes to original responses.

   DCAA Central Region did not correct responses to the following JPAT 7
   questions.

          •   The response to question number 1401 for Independence, MO, was
              based on an inaccurate Metropolitan Statistical Area.

          •   Responses to question number 1403 were submitted in decimal format,
              instead of units of percent, as required.

          •   The response to question number 1409 for San Antonio, TX, was
              inaccurate because of transposed digits in the numerical value.

          •   Responses to question number 1413 for Independence, MO; Tempe,
              AZ; and West Valley, UT, were not adequately supported.

          •   Responses to question number 1416 were inaccurate for Albuquerque,
              NM, and Houston, TX.

   DCAA Eastern Region did not correct responses to the following JPAT 7 and
   COBRA questions.

          •   Responses to question number 1407 for 3 sub-activities (Clearwater,
              FL; Ft. Lauderdale, FL; and Hampton, VA) were incorrect.

          •   Responses to question numbers 1410 and 1415 were accurate and fully
              supported; however, region personnel incorrectly wrote the county
              names on the answer pages instead of the Metropolitan Statistical
              Area.

          •   Responses to question number 1411 were by county instead of
              Metropolitan Statistical Area, as requested.

          •   Responses to question numbers 1420 and 1421 were not adequately
              supported for 21 of the 25 sub-activities because supporting
              documentation did not always provide complete information on the
              person contacted to obtain answers.




                                      23
       •   Responses to question number 1501 for the region and all
           sub-activities were not answered in thousands of square feet.

DCAA Western Region did not correct responses to JPAT 7 question numbers
1420 and 1421. Responses to question numbers 1420 and 1421 were not
adequately supported. Region personnel assumed that the water systems located
within larger populated sub-activities could handle increases in population if the
water systems in lesser populated sub-activities were able to handle the increases.
Region personnel made this assumption without contacting the water systems’
offices in the larger populated sub-activities. The question instructions suggested
contacting the largest community water systems first.
DCAA Mid-Atlantic Region did not correct the following responses to JPAT 7
and COBRA questions.

       •   Regional personnel provided supporting documentation for question
           number 1407 that did not identify whether the institutions were
           accredited or the types of degrees offered; therefore, we could not
           determine whether the answer was accurate.

       •   The response to question number 1501 for the King of Prussia, PA,
           sub-activity was not adequately supported.

DCAA Northeastern Region did not correct responses to the following JPAT 7
questions.

       •   Responses to question numbers 1401 and 1410 for Trumbull, CT, were
           based on the county the office was located in instead of the
           Metropolitan Statistical Area, as required.

       •   The response to question number 1415 for Schenectady, NY, was
           based on the county the office was located in instead of the
           Metropolitan Statistical Area, as required.

       •   Responses to question numbers 1412 and 1416 for DeWitt, NY, were
           inaccurate.




                                    24
Appendix E. Second Data Call Questions
            Reviewed
For the second data call, DCAA Headquarters answered questions on behalf of the
Headquarters Office, DCAI, and the sub-activities located in the statutory National
Capital Region. DCAA regional offices answered questions on behalf of the regional
office and the sub-activities within the region. The charts below depict the questions that
DCAA Headquarters and regional offices answered for each site. The JPAT 7 group
replaced question numbers 1418 and 1419 with question numbers 1420 and 1421.

                  Table 1. Questions Answered by DCAA Headquarters

               Location                      Questions Answered                  Questions Not
                                                                                  Applicable
 DCAA Headquarters,                       1907, 1908, 1911, and            1601-1604, 1606-1726,
 Fort Belvoir, VA                         4099-4103                        1728-1732, 1734-1759,
                                                                           1905, 1909, 1910, 1912-
                                                                           1917, 4072-4074, 4079-
                                                                           4081, 4096, and 4242-
                                                                           4246
 Defense Contract Audit Institute,        1600, 1605, 1727, 1733,
 Memphis, TN (responses provided          1760, 4000, and 4001
 by DCAA Headquarters)
 Defense Contract Audit Institute,        99,* 100,* 1400, 1401,           1402, 1404, 1500, 1502-
 Memphis, TN (responses provided          1403, 1405-1417, 1420,           1504, 1506, and 1507
 by DCAI)                                 1421, 1501, and 1505
 7 Sub-activities (See List 1)            4099-4103
 * During the second data call, the Education and Training JCSG directed DCAI to answer initial
   capacity analysis data call question numbers 99 and 100.

List 1. 7 Sub-activities

     •   Alexandria Branch Office,                        •   Reston Branch Office,
         Springfield, VA                                      Herndon, VA
     •   Fairfax Branch Office,                           •   Rosslyn Branch Office,
         Herndon, VA                                          Springfield, VA
     •   Herndon Branch Office,                           •   Silver Spring Branch Office,
         Herndon, VA                                          Germantown, MD
     •   National Branch Office,
         Germantown, MD




                                                  25
           Table 2. Questions Answered by DCAA Central Region Office

             Location                  Questions Answered          Questions Not
                                                                    Applicable
 DCAA Central Region Office,      1400, 1401, 1403, 1405-     1402, 1404, 1500,
 Irving, TX                       1417, 1420, 1421, 1501,     1502-1504, 1506, and
                                  and 1505                    1507
 19 Sub-activities (See List 1)   1400, 1401, 1403, 1405-
                                  1417, 1420, 1421, 1501,
                                  and 1505

List 1. 19 Sub-activities

    •   Arizona Branch Office,                  •   Milwaukee Branch Office,
        Tempe, AZ                                   Wauwatosa, WI
    •   Albuquerque Sub-office,                 •   Austin Sub-office,
        Albuquerque, NM                             Austin, TX
    •   El Paso Sub-office,                     •   Minneapolis Branch Office,
        El Paso, TX                                 Minneapolis, MN
    •   Arlington Branch Office,                •   Richardson Branch Office,
        Arlington, TX                               Richardson, TX
    •   San Antonio Sub-office,                 •   Oklahoma City Sub-office,
        San Antonio, TX                             Oklahoma City, OK
    •   Chicago Branch Office,                  •   Salt Lake Valley Branch Office,
        Oakbrook Terrace, IL                        West Valley City, UT
    •   Dallas Branch Office,                   •   St. Louis Branch Office,
        Irving, TX                                  St. Louis, MO
    •   Denver Branch Office,                   •   Kansas City Sub-office,
        Lakewood, CO                                Independence, MO
    •   Colorado Springs Sub-office,            •   Wichita Sub-office,
        Colorado Springs, CO                        Wichita, KS
    •   Houston Branch Office,
        Houston, TX




                                           26
           Table 3. Questions Answered by DCAA Eastern Region Office

             Location                   Questions Answered          Questions Not
                                                                     Applicable
 Eastern Region Office,             1400, 1401, 1403, 1405-    1402, 1404, 1500,
 Smyrna, GA                         1417, 1420, 1421, 1501,    1502-1504, 1506, and
                                    and 1505                   1507
 25 Sub-activities (See List 1)     1400, 1401, 1403, 1405-
                                    1417, 1420, 1421, 1501,
                                    and 1505

List 1. 25 Sub-activities

    •   Special Programs Office,                 •   Melbourne Branch Office,
        Greensboro, NC                               Melbourne, FL
    •   Special Programs Office,                 •   Jacksonville Sub-office,
        Orlando, FL                                  Jacksonville, FL
    •   Atlanta Branch Office,                   •   Orlando Sub-office,
        Smyrna, GA                                   Orlando, FL
    •   Fort Rucker Sub-office,                  •   Nashville Branch Office,
        Daleville, AL                                Nashville, TN
    •   Fort Walton Beach Sub-office,            •   North Carolina Branch Office,
        Fort Walton Beach, FL                        Greensboro, NC
    •   Dayton Branch Office,                    •   Chapel Hill Sub-office,
        Fairborn, OH                                 Chapel Hill, NC
    •   Cincinnati Sub-office,                   •   Charleston Sub-office,
        Cincinnati, OH                               North Charleston, SC
    •   Gulf Coast Branch Office,                •   General Dynamics Advanced
        Pascagoula, MS                               Technology Systems Sub-office,
                                                     Greensboro, NC
    •   Hampton Roads Branch Office,             •   Northern Ohio Branch Office,
        Hampton, VA                                  Brecksville, OH
    •   Huntsville Branch Office,                •   Columbus Sub-office,
        Huntsville, AL                               Gahanna, OH
    •   Birmingham Sub-office,                   •   Tampa Bay Branch Office,
        Birmingham, AL                               Clearwater, FL
    •   Jackson Sub-office,                      •   Ft. Lauderdale Sub-office,
        Jackson, MS                                  Ft. Lauderdale, FL
    •   Indianapolis Branch Office,
        Indianapolis, IN




                                            27
           Table 4. Questions Answered by DCAA Western Region Office

             Location                Questions Answered              Questions Not
                                                                      Applicable
 Western Region Office,            1400, 1401, 1403, 1405-      1402, 1404, 1500,
 La Mirada, CA                     1417, 1420, 1421, 1501,      1502-1504, 1506, and
                                   and 1505                     1507
 17 Sub-activities (See List 1)    1400, 1401, 1403, 1405-
                                   1417, 1420, 1421, 1501,
                                   and 1505

List 1. 17 Sub-activities

    •   East Bay Branch Office,                   •   Santa Barbara Sub-office,
        Fremont, CA                                   Goleta, CA
    •   Sacramento Sub-office,                    •   San Gabriel Valley Branch Office,
        Folsom, CA                                    West Covina, CA
    •   North County Branch Office,               •   Santa Ana Branch Office,
        San Diego, CA                                 Santa Ana, CA
    •   Pacific Branch, Hawaii Sub-office,        •   Seattle Branch Office,
        Honolulu, HI                                  Seattle, WA
    •   Peninsula Branch Office,                  •   Alaska Sub-office,
        Mountain View, CA                             Anchorage, AK
    •   Rainier Branch Office,                    •   Fort Vancouver Sub-office,
        Kent, WA                                      Vancouver, WA
    •   San Diego Branch Office,                  •   Richland Sub-office,
        San Diego, CA                                 Richland, WA
    •   San Fernando Valley Branch                •   South Bay Branch Office,
        Office, Van Nuys, CA                          Gardena, CA
    •   Camarillo Sub-office,
        Camarillo, CA




                                             28
        Table 5. Questions Answered by DCAA Mid-Atlantic Region Office

             Location               Question Answered             Not Applicable
 Mid-Atlantic Region Office,      1400, 1401, 1403, 1405-     1402, 1404, 1500,
 Philadelphia, PA                 1417, 1501, and 1505        1502-1504, 1506, and
                                                              1507
 15 Sub-activities (See List 1)   1400, 1401, 1403, 1405-
                                  1417, 1501, and 1505

List 1. 15 Sub-activities

   •   Alexandria Branch Office,                     •      Pittsburgh Sub-office,
       Springfield, VA                                      Pittsburgh, PA
   •   Baltimore Branch Office,                      •      Reston Branch Office,
       Baltimore, MD                                        Herndon, VA
   •   Media Sub-office,                             •      Rosslyn Branch Office,
       Media, PA                                            Springfield, VA
   •   Columbia and Chesapeake Bay Branch            •      State Department Sub-office,
       Offices, Columbia, MD (co-located)                   Springfield, VA
   •   Fairfax Branch Office,                        •      Silver Spring Branch Office,
       Herndon, VA                                          Germantown, MD
   •   Herndon Branch Office,                        •      Agency for International
       Herndon, VA                                          Development, Silver Spring, MD
   •   National Branch Office,                       •      Southern New Jersey Branch
       Germantown, MD                                       Office, Cherry Hill, NJ
   •   Pennsylvania Branch Office,
       King of Prussia, PA




                                        29
        Table 6. Questions Answered by DCAA Northeastern Region Office

            Location                  Questioned Answered          Not Applicable
 Northeastern Region Office,         1400, 1401, 1403, 1405-   1402, 1404, 1500,
 Lowell, MA                          1417, 1501, and 1505      1502-1504, 1506, and
                                                               1507
 12 Sub-activities (See List 1)      1400, 1401, 1403, 1405-
                                     1417, 1501, and 1505

List 1. 12 Sub-activities

    •   Boston Branch Office,                    •   New York Branch Office,
        Boston, MA                                   New York, NY
    •   Great Lakes Branch Office,               •   Northern New England Branch
        Livonia, MI                                  Office, Lexington, MA
    •   Grand Rapids Sub-office,                 •   Upstate New York Branch Office,
        Grand Rapids, MI                             Schenectady, NY
    •   Greater Connecticut Branch               •   Buffalo Sub-office, Buffalo,
        Office, Trumbull, CT                         Bowmansville, NY
    •   East Hartford Sub-office,                •   Dewitt Sub-office,
        East Hartford, CT                            Dewitt, NY
    •   Long Island Branch Office,               •   Rochester Sub-office,
        Central Islip, NY                            Rochester, NY




                                           30
Appendix F. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Director, Defense Contract Audit Agency

Non-Defense Federal Organization
Government Accountability Office




                                          31
Defense Contract Audit Agency Comments
                                         Final Report
                                         Reference




                                         Added
                                         statements
                                         to Executive
                                         Summary
                                         pg ii, report
                                         pgs 4, 5, 7,
                                         8, 10, 11,
                                         and 12




                      33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Carros
Deborah L. Culp
Lois J. Wozniak
Beth K. Schaefer
Timothy Wimette
Jacqueline J. Vos
Kent E. Shaw
Joseph P. Bucsko
Gloria A. Young
Karen L. Jones–Moradian
Peter I. Lee
Arsenio M. Sebastian
David L. Spargo
Bradford C. Green
Paul M. Gach
Kimberly H. Gianfagna
Brian R. McNamara
Brett N. Ward
Richard O. Williams
Marc D. Santana
Amie M. Coffren
Deanne B. Curry
Chad J. Evans
LeBarron A. Durant
Meredith H. Johnson
